HHS/OIG-Audit-"Review of Pension Costs Claimed for Medicare Reimbursement
by Trigon Blue Cross Blue Shield," (A-07-02-03009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Trigon
Blue Cross Blue Shield," (A-07-02-03009)
July 16, 2002
Complete Text of Report is available in PDF format
(472 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review
was to determine the allowability of pension costs claimed for Medicare reimbursement
for Fiscal Years (FY's) 1988 through 1999.  For
Fiscal Years 1988 through 1999, we determined that Trigon Blue Cross Blue Shield
(Trigon) under claimed allowable Medicare pension costs.  During this period,
the allowable Medicare pension costs were $2,677,690.  However, Trigon
claimed pension costs of $1,379,473 for Medicare reimbursement.  As a result,
Trigon did not claim $1,298,217 in allowable pension costs.  This under
claim of pension costs was the result of Trigon basing their pension cost calculations
on incorrect asset values, and because Trigon neglected to include certain pension
contribution amounts on their Final Administrative Cost Proposals (FACPS).  We
are recommending Trigon revise its FACPs to reflect the remaining allowable
pension costs.  Trigon agreed with our recommendations.